 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


   INDIANA IMPROPERLY CLAIMED
FEDERAL REIMBURSEMENT FOR MOST
 MEDICAID INPATIENT PSYCHIATRIC
      HOSPITAL SERVICE AND
DISPROPORTIONATE SHARE HOSPITAL
     PAYMENTS TO EVANSVILLE
 PSYCHIATRIC CHILDREN’S CENTER

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                         May 2013
                                                       A-05-12-00040
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Indiana Medicaid Program

The Indiana Office of Medicaid Policy and Planning (the State Medicaid agency) administers the
Indiana Medicaid program according to the CMS-approved State plan. The State Medicaid
agency makes Medicaid payments to eligible hospitals and claims Federal reimbursement for a
portion of those payments. The Indiana Division of Mental Health and Addiction operates six
State-owned psychiatric hospitals that provide inpatient treatment for mental health conditions.
The Indiana State Department of Health is the State survey agency responsible for determining
whether these hospitals meet the standards for participation in the Medicaid program. Evansville
Psychiatric Children’s Center (Evansville), an institution for mental diseases and one of the six
State-owned psychiatric hospitals, provides Medicaid inpatient psychiatric services primarily to
adolescents and children with serious emotional disturbances.

Federal Requirements for Inpatient Psychiatric Hospital Services

For States to claim Federal reimbursement for their Medicaid inpatient psychiatric service and
disproportionate share hospital (DSH) payments to a psychiatric hospital, the hospital’s inpatient
services must meet the Federal definition of such services. This definition requires the provider
to demonstrate compliance with the basic Medicare Conditions of Participation (CoP) generally
applicable to all hospitals and two special Medicare CoP applicable to psychiatric hospitals. The
basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self
assessment and performance improvement, and service availability. The special Medicare CoP
specify staffing and medical record requirements.

A psychiatric hospital must undergo review by qualified health care professionals to demonstrate
compliance with the basic and special Medicare CoP. That review provides CMS with
reasonable assurance that participating facilities are improving the health and protecting the
safety of Medicaid beneficiaries. For periods in which a psychiatric hospital does not
demonstrate compliance with the basic and special Medicare CoP, all inpatient psychiatric
service and DSH payments received from the State Medicaid agency are ineligible for Federal
reimbursement.




                                                i
CMS made a technical error when it issued Medicare transplant center CoP regulations in 2007.
Effective June 28, 2007, it inadvertently omitted certain Medicare psychiatric hospital CoP
regulations that were relevant to this audit. CMS formally reinstated the omitted regulations
effective October 26, 2007. Despite the omission, CMS’s implementing guidance remained in
effect from June 28 through October 25, 2007 (the regulatory gap period).

OBJECTIVE

Our objective was to determine whether the State Medicaid agency claimed Federal
reimbursement for inpatient psychiatric service and DSH payments made to Evansville in
accordance with certain Federal requirements for inpatient psychiatric hospital services.

SUMMARY OF FINDING

Most State Medicaid agency claims for Federal reimbursement for inpatient psychiatric service
and DSH payments made to Evansville were not in accordance with Federal requirements for
inpatient psychiatric hospital services. The State Medicaid agency claimed $10,480,784 in
Federal reimbursement for claims with dates of service during the audit period, January 1, 2006,
through December 31, 2010. The State Medicaid agency claimed $7,913,344 in Federal
reimbursement for claims with dates of service from January 1, 2006, through
December 9, 2009, and $2,567,440 for claims with dates of service from December 10, 2009,
through December 31, 2010.

Evansville did not demonstrate compliance with the basic or special Medicare CoP from
January 1, 2006, through December 9, 2009. Therefore, of the $7,913,344 claimed for that
period, the $7,567,455 for claims with dates of service outside the regulatory gap period was not
allowable. We have not provided an opinion on the allowability of State Medicaid agency
claims for the remaining $345,889, which was for claims with dates of service during the
regulatory gap period. The State Medicaid agency claimed the $7,913,344 because it believed
that Evansville had met all requirements to be eligible for Medicaid inpatient psychiatric service
and DSH payments.

On December 10, 2009, Evansville successfully completed a survey that demonstrated its
compliance with the basic and special Medicare CoP. Therefore, the State Medicaid agency
properly claimed $2,567,440 in Federal reimbursement for claims with dates of service on or
after December 10, 2009.

RECOMMENDATIONS

We recommend that the State Medicaid agency:

   •   refund $7,567,455 to the Federal Government for its share of inpatient psychiatric service
       and DSH payments made to Evansville for claims with dates of service outside the
       regulatory gap period when it did not demonstrate compliance with the basic and special
       Medicare CoP,




                                                ii
   •   work with CMS to determine whether the State Medicaid agency should refund an
       additional $345,889 to the Federal Government for its share of payments made to
       Evansville for claims with dates of service during the regulatory gap period, and

   •   ensure that Federal reimbursement for Medicaid inpatient psychiatric service and DSH
       payments to psychiatric hospitals is claimed only if those hospitals can demonstrate
       compliance with the basic and special Medicare CoP.

STATE MEDICAID AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State Medicaid agency did not concur with our first
and second recommendations. Although the State Medicaid agency concurred with our third
recommendation, it also stated that Evansville “does not need to demonstrate compliance with
the basic Medicare CoP … to receive payments for children under age 21.”

After reviewing the State Medicaid agency’s comments on our draft report, we maintain that our
findings and recommendations are valid. Federal Medicaid requirements mandate that inpatient
service and DSH payments to psychiatric hospitals are eligible for Federal reimbursement only if
they demonstrate compliance with both the basic and special Medicare CoP. Evansville did not
demonstrate compliance with either the basic or the special Medicare CoP from January 1, 2006,
through December 9, 2009.




                                               iii
                                                    TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program ............................................................................................................... 1
       Indiana Medicaid Program .................................................................................................. 1
       Federal Requirements for Inpatient Psychiatric Hospital Services..................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 3
       Objective ............................................................................................................................. 3
       Scope ................................................................................................................................... 3
       Methodology ....................................................................................................................... 3

FINDING AND RECOMMENDATIONS .................................................................................. 4

     FEDERAL REQUIREMENTS ................................................................................................. 4

     EVANSVILLE DID NOT DEMONSTRATE COMPLIANCE WITH MEDICARE
     CONDITIONS OF PARTICIPATION FOR MOST OF AUDIT PERIOD ............................. 5

     RECOMMENDATIONS .......................................................................................................... 6

     STATE MEDICAID AGENCY COMMENTS ........................................................................ 7

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 7

APPENDIX

     STATE MEDICAID AGENCY COMMENTS




                                                                       iv
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Indiana Medicaid Program

The Indiana Office of Medicaid Policy and Planning (the State Medicaid agency) administers the
Indiana Medicaid program according to the CMS-approved State plan. The State Medicaid
agency makes Medicaid payments to eligible hospitals and claims Federal reimbursement for a
portion of those payments. The Indiana Division of Mental Health and Addiction operates six
State-owned psychiatric hospitals that provide inpatient treatment for mental health conditions.
The Indiana State Department of Health is the State survey agency responsible for determining
whether these hospitals meet the standards for participation in the Medicaid program. Evansville
Psychiatric Children’s Center (Evansville), an institution for mental diseases (IMD) and one of
the six State-owned psychiatric hospitals, provides inpatient psychiatric services primarily to
adolescents and children with serious emotional disturbances. During the audit period,
January 1, 2006, through December 31, 2010, Evansville participated in the Medicaid, but not
the Medicare, program.

Federal Requirements for Inpatient Psychiatric Hospital Services

For States to claim Federal reimbursement for their Medicaid inpatient psychiatric service and
disproportionate share hospital (DSH) 1 payments to a psychiatric hospital, the hospital’s
inpatient services must meet the Federal definition of such services. This definition requires the
provider to demonstrate compliance with the basic Medicare Conditions of Participation (CoP)
generally applicable to all hospitals and two special Medicare CoP applicable to psychiatric
hospitals.

Medicaid Payments

Pursuant to section 1903(a)(1) of the Act, States can claim Federal reimbursement for a portion
of their Medicaid medical assistance and DSH payments. For patients in IMDs, a category that

1
 Pursuant to section 1923 of the Act, certain hospitals are eligible for special payments, known as DSH payments.
To receive DSH payments, hospitals must serve a disproportionately large share of low-income and/or uninsured
patients and meet other Federal and State requirements. The payments compensate the hospitals for their
uncompensated costs of providing hospital services to such patients.


                                                        1
generally includes psychiatric hospitals, medical assistance includes inpatient hospital services
for individuals aged 65 or older but excludes care or services for younger individuals except for
inpatient psychiatric hospital services for individuals under age 21 (section 1905(a) of the Act). 2
In addition, if a certain percentage of a psychiatric hospital’s inpatient days are attributable to
Medicaid-eligible patients, the hospital may be entitled to DSH payments pursuant to section
1923 of the Act.

Definition of Medicaid Inpatient Psychiatric Hospital Services

The Federal definition of Medicaid inpatient psychiatric hospital services requires the hospitals
providing such services to comply with Medicare CoP, including two special Medicare CoP.
The basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights,
self assessment and performance improvement, and service availability (42 CFR §§ 482.1–
482.23 and 42 CFR §§ 482.25–482.57). The special Medicare CoP specify staffing and medical
record requirements (42 CFR §§ 482.61 and 482.62).

In 72 Fed. Reg. 60787 (Oct. 26, 2007), CMS corrected a technical error that it had made when it
issued Medicare transplant center CoP regulations that became effective June 28, 2007. When it
amended 42 CFR part 482, subpart E, in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS inadvertently
omitted 42 CFR §§ 482.60–482.62, which are Medicare psychiatric hospital CoP regulations
relevant to this audit. The correction reinstated the omitted regulations effective
October 26, 2007. Despite the omission, CMS’s implementing guidance (e.g., manuals)
remained in effect from June 28 through October 25, 2007 (the regulatory gap period).

Demonstrating Compliance With Medicare Conditions of Participation

To demonstrate compliance with the basic and special Medicare CoP, a psychiatric hospital must
undergo review by qualified health care professionals. Medicare-participating psychiatric
hospitals are generally deemed to meet both the basic and special Medicare CoP for Medicaid
purposes (42 CFR § 488.5(b)). If psychiatric hospitals do not participate in Medicare, they can
demonstrate compliance with the basic and special Medicare CoP by successfully completing a
survey of those CoP performed by the State survey agency (42 CFR § 488.10(a)). During the
audit period, January 1, 2006, through December 31, 2010, a psychiatric hospital could also
generally demonstrate compliance with the basic Medicare CoP 3 by being accredited as a
hospital by CMS-approved organizations, such as the Joint Commission. 4 However, psychiatric
hospitals could not demonstrate compliance with the special Medicare CoP (42 CFR § 488.5(a))
through Joint Commission accreditation, because at that time the Commission did not have that



2
 Pursuant to 42 CFR § 441.151(a)(3), medical assistance also includes necessary inpatient psychiatric hospital
services for individuals aged 21 if they were receiving such services immediately before reaching age 21.
3
  One exception is the utilization review requirement in 42 CFR § 482.30; however, compliance with the utilization
review requirement was outside the scope of our audit.
4
 The Joint Commission was previously known as the Joint Commission on Accreditation of Healthcare
Organizations and is so referenced in 42 CFR § 488.5(a).


                                                         2
authority. 5 According to the CMS State Operations Manual, section 2718A, psychiatric
hospitals had to be specially surveyed by qualified psychiatric health care professionals to
demonstrate compliance with the special Medicare CoP.

Accreditation or survey by qualified health care professionals provides CMS with reasonable
assurance that participating facilities are improving the health and protecting the safety of
Medicaid beneficiaries. To provide such assurance, the surveys must be performed “as
frequently as necessary to ascertain compliance” (42 CFR § 488.20(b)(1)).

For periods in which a psychiatric hospital does not demonstrate compliance with the basic and
special Medicare CoP, all inpatient psychiatric service and DSH payments received from the
State Medicaid agency are ineligible for Federal reimbursement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State Medicaid agency claimed Federal
reimbursement for inpatient psychiatric service and DSH payments made to Evansville in
accordance with certain Federal requirements for inpatient psychiatric hospital services.

Scope

We reviewed Evansville’s compliance for the period of January 1, 2006, through
December 31, 2010, with certain Federal requirements for inpatient psychiatric hospital services.
We identified $10,480,784 in Federal reimbursement for Medicaid inpatient psychiatric service
and DSH payments made to Evansville for claims with dates of service during the audit period.
We limited our review of the State Medicaid agency’s internal controls to those significant to the
objective of our audit.

We performed our fieldwork from February through May 2012.

Methodology

To accomplish our objective, we:

    •   examined Federal and State Medicaid requirements for inpatient psychiatric hospital
        services,

    •   identified periods for which neither the State Medicaid agency nor Evansville could
        demonstrate Evansville’s compliance with certain Federal requirements for inpatient
        psychiatric hospital services,



5
 After the audit period (January 1, 2006, through December 31, 2010), CMS granted the Joint Commission deeming
authority with respect to the two special Medicare CoP (76 Fed. Reg. 10598 (Feb. 25, 2011)).


                                                      3
       •   held discussions with officials of the State Medicaid agency and reviewed its Medicaid
           payment records, and

       •   determined the amount of Federal reimbursement for Medicaid inpatient psychiatric
           service and DSH payments made to Evansville for claims with dates of service during
           periods when it did not demonstrate compliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                  FINDING AND RECOMMENDATIONS

Most State Medicaid agency claims for Federal reimbursement for inpatient psychiatric service
and DSH payments made to Evansville were not in accordance with Federal requirements for
inpatient psychiatric hospital services. The State Medicaid agency claimed $10,480,784 in
Federal reimbursement for claims with dates of service during the audit period, January 1, 2006,
through December 31, 2010. The State Medicaid agency claimed $7,913,344 in Federal
reimbursement for claims with dates of service from January 1, 2006, through
December 9, 2009, and $2,567,440 for claims with dates of service from December 10, 2009,
through December 31, 2010.

Evansville did not demonstrate compliance with the basic or special Medicare CoP from
January 1, 2006, through December 9, 2009. Therefore, of the $7,913,344 claimed for that
period, the $7,567,455 for claims with dates of service outside the regulatory gap period was not
allowable. We have not provided an opinion on the allowability of State Medicaid agency
claims for the remaining $345,889, which was for claims with dates of service during the
regulatory gap period. The State Medicaid agency claimed the $7,913,344 because it believed
that Evansville had met all requirements to be eligible for Medicaid inpatient psychiatric service
and DSH payments.

On December 10, 2009, Evansville successfully completed a survey that demonstrated its
compliance with the basic and special Medicare CoP. Therefore, the State Medicaid agency
properly claimed $2,567,440 in Federal reimbursement for claims with dates of service on or
after December 10, 2009.

FEDERAL REQUIREMENTS

Pursuant to sections 1905(h)(1) and 1861(f) of the Act, if inpatient psychiatric services furnished
to individuals under age 21 are provided in a psychiatric hospital, the psychiatric hospital must
meet the basic and special Medicare CoP. Regulations in 42 CFR § 482.60 implement the
requirements in 1861(f) 6 and mandate that such psychiatric hospitals meet the basic Medicare
CoP (42 CFR §§ 482.1–482.23 and 42 CFR §§ 482.25–482.57) applicable to all hospitals and
6
    Regulations in 42 CFR § 482.1(a)(2) cite section 1861(f) of the Act as a statutory basis for 42 CFR pt. 482.


                                                            4
two special Medicare CoP applicable to psychiatric hospitals (42 CFR §§ 482.61 and 482.62).
Psychiatric hospitals that provide Medicaid inpatient psychiatric services must meet the same
Medicare CoP for their DSH payments to be eligible for Federal reimbursement.

The Medicare CoP for psychiatric hospitals are minimum standards that provide a basis for
improving quality of care and protecting the health and safety of Medicaid beneficiaries. The
basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self
assessment and performance improvement, and service availability (42 CFR §§ 482.1–482.23
and 42 CFR §§ 482.25–482.57). The special staffing Medicare CoP require that psychiatric
hospitals “have adequate numbers of qualified professional and supportive staff to evaluate
patients, formulate written, individualized comprehensive treatment plans, provide active
treatment measures, and engage in discharge planning” (42 CFR § 482.62). The special medical
record Medicare CoP require that “medical records maintained by a psychiatric hospital …
permit determination of the degree and intensity of the treatment provided to individuals who are
furnished services in the institution” (42 CFR § 482.61).

EVANSVILLE DID NOT DEMONSTRATE COMPLIANCE WITH MEDICARE
CONDITIONS OF PARTICIPATION FOR MOST OF AUDIT PERIOD

The State Medicaid agency claimed $10,480,784 in Federal reimbursement for inpatient
psychiatric service and DSH payments made to Evansville for claims with dates of service
during the audit period. During most of that period, Evansville did not demonstrate compliance
with the Medicare CoP.

Evansville did not demonstrate compliance with the basic or special Medicare CoP from
January 1, 2006, through December 9, 2009. Evansville did not participate in Medicare at any
time during the audit period and was not thereby deemed to meet either the basic or the special
Medicare CoP for Medicaid purposes. Prior to December 10, 2009, Evansville also did not
demonstrate compliance with the basic Medicare CoP by any approved method. First, it was not
accredited as a hospital by a CMS-approved organization at any time during the audit period. 7
Second, until December 10, 2009, it had never been surveyed by the State survey agency to
demonstrate compliance with the basic Medicare CoP. Prior to December 10, 2009, Evansville
also did not demonstrate compliance with the special Medicare CoP because it had last been
surveyed by the State survey agency to demonstrate compliance with those standards in
May 1995. As of the beginning of our audit period, that survey was more than 10 years old and,
therefore, did not reasonably satisfy the requirement to be resurveyed “as frequently as necessary
to ascertain compliance” (42 CFR § 488.20(b)(1)). Accordingly, the May 1995 survey could not
legitimately demonstrate Evansville’s compliance with the special Medicare CoP.

The State Medicaid agency claimed $7,913,344 8 in Federal reimbursement for inpatient
psychiatric service and DSH payments made to Evansville for claims with dates of service from

7
 Evansville was accredited by the Joint Commission under the Comprehensive Accreditation Manual for
Behavioral Health Care standards, but it was not accredited as a hospital and thus did not have deemed compliance
with the basic Medicare CoP.
8
    This figure is the sum of improperly claimed and set-aside Federal reimbursement in the table on the next page.


                                                            5
January 1, 2006, through December 9, 2009. The State Medicaid agency improperly claimed
$7,567,455 in such funds for claims with dates of service during that period but outside the
regulatory gap period. The $7,567,455 included Federal reimbursement of $6,573,945 for
improperly claimed service payments and $993,510 for improperly claimed DSH payments. We
have set aside for further review by CMS and the State Medicaid agency $345,889 in Federal
reimbursement for inpatient psychiatric service payments made to Evansville for claims with
dates of service during the regulatory gap period. 9 The table below shows Federal
reimbursement by payment type and allowability.

                  Federal Reimbursement by Payment Type and Allowability


               Payment       Improperly                         Properly
                Type          Claimed          Set Aside        Claimed           Total


              Service         $6,573,945         $345,889      $2,567,440       $9,487,274


              DSH                 993,510                  0               0        993,510


                Total         $7,567,455         $345,889      $2,567,440      $10,480,784


The State Medicaid agency improperly claimed Federal reimbursement for claims with dates of
service from January 1, 2006, through December 9, 2009, because the State Medicaid agency
believed that Evansville had met all requirements to be eligible for inpatient psychiatric service
and DSH payments. Specifically, the State Medicaid agency believed that Evansville’s Medicaid
certification established its eligibility for such payments and that Evansville did not have to
demonstrate compliance with the Medicare CoP.

Within the scope of this review, the State Medicaid agency properly claimed $2,567,440 in
Federal reimbursement for inpatient psychiatric service payments made to Evansville for claims
with dates of service on or after December 10, 2009. On December 10, 2009, Evansville
successfully completed a survey of both the basic and special Medicare CoP performed by the
State survey agency and thereby demonstrated its compliance with those standards.

RECOMMENDATIONS

We recommend that the State Medicaid agency:

    •   refund $7,567,455 to the Federal Government for its share of inpatient psychiatric service
        and DSH payments made to Evansville for claims with dates of service outside the
9
 Despite CMS’s inadvertent omission of 42 CFR §§ 482.60–482.62 in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS’s
implementing guidance remained in effect during this period.


                                                     6
           regulatory gap period when it did not demonstrate compliance with the basic and special
           Medicare CoP,

       •   work with CMS to determine whether the State Medicaid agency should refund an
           additional $345,889 to the Federal Government for its share of payments made to
           Evansville for claims with dates of service during the regulatory gap period, and

       •   ensure that Federal reimbursement for Medicaid inpatient psychiatric service and DSH
           payments to psychiatric hospitals is claimed only if those hospitals can demonstrate
           compliance with the basic and special Medicare CoP.

STATE MEDICAID AGENCY COMMENTS

In written comments on our draft report, the State Medicaid agency did not concur with our first
and second recommendations and only technically concurred with our third recommendation.
The State Medicaid agency did not concur with our first and second recommendations because it
believes that Evansville, which provided inpatient psychiatric services to individuals under
age 21, did not have to meet the basic Medicare CoP. The State Medicaid agency also believes
that Evansville’s May 1995 survey demonstrated its compliance with the special Medicare CoP
during the audit period. Although the State Medicaid agency concurred with our third
recommendation, it also stated that Evansville “does not need to demonstrate compliance with
the basic Medicare CoP … to receive payments for children under age 21.”

The State Medicaid agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State Medicaid agency’s comments on our draft report, we maintain that our
findings and recommendations are valid. Federal Medicaid requirements mandate that inpatient
service and DSH payments to psychiatric hospitals are eligible for Federal reimbursement only if
they demonstrate compliance with both the basic and special Medicare CoP. Evansville did not
demonstrate compliance with either the basic or the special Medicare CoP from January 1, 2006,
through December 9, 2009.

The State Medicaid agency believes that Evansville, which provided inpatient psychiatric
services to individuals under age 21, did not have to meet the basic Medicare CoP; we disagree.
Section 1905(h)(1) of the Act states, “[T]he term ‘inpatient psychiatric hospital services for
individuals under age 21’ includes only … inpatient services which are provided in an
institution … which is a psychiatric hospital as defined in section 1861(f).” 10 Section 1861(f) of
the Act defines a psychiatric hospital and requires it to meet both the basic and special Medicare
CoP. These requirements are implemented in 42 CFR § 482.60. 11 Therefore, psychiatric

10
  Section 1905(h)(1) of the Act also permits such services to be provided “in another inpatient setting that the
Secretary has specified in regulations,” such as psychiatric residential treatment facilities. However, such settings
are irrelevant to this audit because Evansville was a psychiatric hospital throughout the audit period.
11
     Regulations in 42 CFR § 482.1(a)(2) cite section 1861(f) of the Act as a statutory basis for 42 CFR pt. 482.


                                                            7
hospitals like Evansville were required to meet the basic and special Medicare CoP to make the
inpatient service and DSH payments they received for individuals under age 21 eligible for
Federal reimbursement.

The State Medicaid agency also believes that Evansville’s May 1995 survey demonstrated
Evansville’s compliance with the special Medicare CoP during the audit period; we disagree.
Regulations in 42 CFR § 488.20(b)(1) require Evansville to be resurveyed “as frequently as
necessary to ascertain compliance.” We concluded that, on its face, the May 1995 survey did not
reasonably satisfy that requirement because at the beginning of our audit period
(January 1, 2006), the survey was already more than 10 years old.




                                               8
APPENDIX
                                                                                                                      Page 1 of3

       APPENDIX: STATE MEDICAID AGENCY COMMENTS




                                                                                 Mitchell E. Daniels, Jr., Governor
                                                                                                  State of Indiana
                      •People
                       helping people                            Office ofMedicaid Policy and Planning
                       help                                MS07, 402 W . WASHINGTON STREET, ROOM W382
                       themselves •                                           INDIANAPOUS, IN 46204-2739




November 2, 2012


Sheri L. Fulcher
Regional Inspector General for Audit Services
Department of Health and Human Services
Office ofAudit Services
233 North Michigan, Suite 1360
Chicago , IL 60601

Re: OTG Report No. A-05-12-00040

Dear Ms. Fulcher:

The Indiana Office of Medicaid Policy and Planning (OMPP) appreciates the opportunity to
comment on the Office oflnspcctor General ' s (OTG) draft report entitled "Indiana Improperly
Claimed Federal Reimbursement for Most Medicaid Inpatient Psychiatric Hospital Service and
Disproportionate Share Hospital Payments to Evansville Psychiatric Children's Cent~r," Report
No . A-05 -12-00040, dated September 28,2012. The State appreciates the extension ofthe
deadline for OMPP's response to October 31, 2012.

In this letter, the State addresses the recommendations included in the aforementioned draft audit
report.

Recommendation 1: Refund $7,567,455 to the Federal Government for its share ofinpatient
psychiatric service and DSH payments made to Evansville for claims with dates ofservice
outside the regulatory gap period when it did not demonstrate compliance with the basic and
special Medicare CoP.

State Response: Nonconcurrence. Indiana submitted claims for federal financial participation
(FFP) r elated to inpatient psychiatric services and disproportionate share hospital (DSH)
payments because the State believed that Evansville Psychiatric Children's Center (EPCC) met
all applicable requirements for services and DSH payments. The premise for the financial
findings in the draft report is that a provider must "demonstrate compliance with the basic




                                             www.IN.gov/!ssa 

                                Equal OpportunHy/Affirmative Action Employer 

                                                                                                        Page 2 of3




Medicare Conditions ofParticipation (CoP) generally applicable to all hospitals and two special
Medicare CoP applicable to psychiatric hospitals."

EPCC is a children's facility and was Joint-Commission accredited for the entire audit period
and met the requirements for receiving DSH payments set forth in Attachment 4.19A ofthe State
plan, thus the State properly claimed FFP and DSH payments for EPCC. EPCC does not need to
demonstrate compliance with the basic Medicare CoP in order to receive payments for children
under age 21, as the Medicaid regulations permit reimbursement for inpatient psychiatric
services provided to children under age 21 in a non-hospital setting accredited by the Joint
Commission (see 42 CFR § 441.15l(a)(2)).

Further, EPCC was previously surveyed by the State survey agency to demonstrate compliance
with the special Medicare CoP in May 1995. The OIG writes in the draft report"...that survey
was more than 10 years old and, therefore, did not reasonably satisfy the requirement to be
resurveyed "as frequently as necessary to ascertain compliance" (42 CFR § 488.20(b)(l ).
Accordingly, the May 1995 survey could not legitimately demonstrate Evansville's compliance
with the special Medicare CoP."

Indiana disagrees that the quoted Regulation prohibits it from relying on a survey that is more
than 10 years old to demonstrate compliance with conditions ofparticipation. Most notably, the
quoted Regulation requires only that a State conduct surveys as frequently as it deems "necessary
to ensure compliance and confirm the correction ofdeficiencies." See 42 C.F.R. § 488.20(b)(l ).
The Regulation does not set a time limit on State's ability to rely on successful facility surveys.
The OIG report references no legal support for its interpretation ofthe law that a state's survey
from 1995 is not frequent enough to "ascertain compliance and confirm the correction of
deficiencies."

 Further still, in a 2000 report 1, the OIG pointed out that there was no established survey cycle
for psychiatric hospitals and recommended that CMS establish one. EPCC was regularly
reaccredited by the Joint Commission with no indication ofany problem that would require
recertification. There has never been any indication that EPCC was out ofcompliance with the
special CoP. In the absence ofpertinent guidance from CMS, it is Indiana's position that neither
EPCC nor the State Medicaid agency is responsible for scheduling recertification surveys.

Recommendation 2: Work with CMS to determine whether the State Medicaid agency should
refund an additional $345,889 to the Federal Government fur its share ofpayments made to
Evansville for claims with dates ofservice during the regulatory gap period.

State Response: Nonconcurrence. As stated previously, Indiana submitted claims for federal
financial participation (FFP) related to inpatient psychiatric services and disproportionate share
hospital (DSH) payments because the State believes that EPCC met all applicable requirements
for services and DSH payments during the time period ofthis audit. Thus, the State believes
there is no need to work with CMS on this issue.

1
 "The External Quality Review ofPsychiatric Hospitals," No. OEI-0 1-99-00160 (May 2000), available at
hllp://oi g.hhs.gov/oei/reports/oei-0 1-99-00160.pdf.
                                                                                                     Page 3 of3




Recommendation 3: Ensure that Federal reimbursement for Medicaid inpatient psychiatric
service and DSH payments to psychiatric hospitals is claimed only ifthose hospitals can
demonstrate compliance with the basic and special Medicare CoP.

State Response: Concurrence. As stated previously, Indiana submitted claims for federal
financial participation (FFP) related to inpatient psychiatric services and disproportionate share
hospital (DSH) payments because the State believes that EPCC met all applicable requirements
for services and DSH payments during the time period of this audit. The draft report also
recognizes that on December I 0, 2009, EPCC successfully completed a survey ofboth the basic
and special Medicare CoP performed by the State survey agency and demonstrated compliance
with those standards and that FFP claimed on or after December I 0, 2009 was properly claimed.

The State appreciates your consideration ofthe information provided in this letter. Ifyou have
any questions or require additional information, please contact Kristina Moorhead at 317-233­
2127 or Kristina.Moorhead@fssa.in.gov.

Sincerely,




Pat Casanova
Medicaid Director
